NO. 20-5169
IN THE SUPREME COURT OF THE UNITED STATES
RANDY A. THOMAS
Petitioner
-vsTHE STATE OF OHIO
Respondent

CERTIFICATE OF SERVICE

I, Jacquenette S. Corgan, hereby certify that on this 24th day of August
2020, a copy of the foregoing BRIEF IN OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI was sent by first class U.S. Mail and via electronic
mail, as required by Supreme Court Rule 29, to Attorney John P. Parker, 988
East 185th Street, Cleveland, Ohio 44119, advocateparker@gmail.com.
SHERRI BEVAN WALSH
Prosecuting Attorney
County of Summit, Ohio
/s/ Jacquenette S. Corgan
JACQUENETTE S. CORGAN
Assistant Prosecuting Attorney
Counsel of Record
Summit County Prosecutor’s Office
Appellate Division
53 University Avenue, 6th Floor
Akron, Ohio 44308
(330) 643-2800
jcorgan@prosecutor.summitoh.net
COUNSEL FOR RESPONDENT

